<html>
<title> - D.C. METRO: IS THERE A SAFETY GAP?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   D.C. METRO: IS THERE A SAFETY GAP?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON TRANSPORTATION,
                           AND PUBLIC ASSETS

                               AND THE

                  SUBCOMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEETH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2015

                               __________

                            Serial No. 114-2

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               ____________
                               
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE
93-689 PDF                      WASHINGTON : 2015                            
________________________________________________________________________________________                   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>  
                   
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                Michael Kiko, Professional Staff Member
               Chris D'Angelo, Professional Staff Member
                           Sarah Vance, Clerk
            Subcommittee on Transportation and Public Assets

                    JOHN L. MICA, Florida, Chairman
GLENN GROTHMAN, Wisconsin, Vice      TAMMY DUCKWORTH, Illinois, Ranking 
    Chair                                Minority Member
MICHAEL R. TURNER, Ohio              BONNIE WATSON COLEMAN, New Jersey
JOHN J. DUNCAN, JR. Tennessee        MARK DeSAULNIER, California
JUSTIN AMASH, Michigan               BRENDAN F. BOYLE, Pennsylvania
THOMAS MASSIE, Kentucky

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 13, 2015................................     1

                               WITNESSES

Mr. Jonathan Rogers, January 12, 2015, Metrorail Passenger
    Oral Statement...............................................    10
    Written Statement............................................    13
The Hon. Christopher A. Hart, Acting Chairman, National 
  Transportation Safety Board
    Oral Statement...............................................    15
    Written Statement............................................    18
Mr. Mortimer L. Downey III, Board of Directors, Chairman, 
  Washington Metropolitan Area Transit Authority
    Oral Statement...............................................    33
    Written Statement............................................    36
Mr. Edward R. Mills, Assistant Fire Chief Operations, D.C. Fire 
  and Emergency Medical Services Department
    Oral Statement...............................................    42
    Written Statement............................................    47
Ms. Jackie L. Jeter, President and Business Agent, Amalgamated 
  Transit Union, Local 689
    Oral Statement...............................................    56
    Written Statement............................................    58

                   D.C. METRO: IS THERE A SAFETY GAP?

                              ----------                              


                       Friday, February 13, 2015

                  House of Representatives,
 Subcommittee on Transportation and Public Assets, 
         joint with the Subcommittee on Government 
                                        Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present from Subcommittee on Transportation and Public 
Assets: Representatives Mica, Amash, Massie, Grothman, 
Chaffetz, DeSaulnier, Boyle, and Cummings.
    Present from Subcommittee on Government Operations: 
Representatives Meadows, Jordan, Walberg, Massie, Mulvaney, 
Buck, Carter, Grotham, Connolly, Maloney, Norton, and Clay.
    Also present: Representative Beyer.
    Mr. Mica. Good morning. And I'd like to welcome everyone 
and call to order this joint hearing this morning of the 
Transportation and Public Assets Subcommittee along with the 
Government Operations Subcommittee. Welcome, everyone.
    The topic of our hearing today is ``D.C. Metro: Is There a 
Safety Gap?'' With that question, we will address the matter of 
the recent unfortunate death and incident we had in the D.C. 
Metro.
    And welcome our witnesses this morning. We'll introduce you 
shortly.
    The order of business will be first I'll start with an 
opening statement, then we'll go to the acting ranking member. 
And I understand Ms. Duckworth is to be back with us soon, 
proud mother of a new baby girl. And then we'll go to Mr. 
Meadows, who chairs the Government Operations Subcommittee, and 
then Mr. DeSaulnier, who we'll recognize for his Statement, and 
other members.
    So with that, without objection, the chair is authorized to 
declare a recess at any time. Also would ask unanimous consent 
that our colleagues from the 8th and 10th Districts of 
Virginia, Mr. Don Beyer and Congresswoman Barbara Comstock, be 
allowed to fully participate in today's hearing. Without 
objection, so ordered.
    And with that, let me start with my opening Statement, then 
we'll proceed. So, again, I thank you for coming. This is an 
important hearing. Both of the subcommittees have jurisdiction. 
We are fortunate to chair a new transportation oversight 
subcommittee, working with Mr. Meadows and Mr. Connolly and 
others. It's a day that we find ourselves about 1 month ago 
yesterday when a Washington native, Carol Glover, tragically 
lost her life as she and hundreds of other passengers on a 
Yellow Line train, Metro train, where stuck for over an hour in 
a smoke-filled tunnel. And that was just 100 yards away from 
the L'Enfant Metro Plaza Station. More than 80 people were 
hospitalized in that incident.
    Now, we do have pretty broad authority, but specifically 
Congress does have a unique relationship with the District of 
Columbia, and this committee specifically has a unique 
responsibility to the District of Columbia as far as oversight 
and responsibility to really monitor incidents like this in a 
transit system that serves not only the region but also our 
Nation's capital and receives a very significant amount of 
Federal dollars.
    The investigation into this incident is still underway, but 
any loss of life and an incident like this certainly deserves 
our attention and our review, particularly at this point, 
especially considering some of the alarming facts that have 
come to light in just the last 30 days since the incident. 
There are some things that we know and some things we are 
learning. I brought this paper, headline of yesterday's paper, 
``NTSB: Metro Fans Set Wrong.'' That was kind of startling for 
all of us to learn yesterday.
    We know and we've heard the District has reviewed some of 
this incident also, but we know that there were some very 
serious communication issues between Metro and first 
responders. We also know that radios used by D.C. fire and 
emergency service workers only work sporadically and that 
firefighters had to use an alternative method of communication, 
such as runners and personal cell phones.
    We also know that it took over an hour to evacuate all of 
the passengers off the train. And we know, of course, I think 
that everyone who has looked at this to date has said that the 
response could and should have been much better.
    Today's hearing is not just about the January 12 incident, 
but rather how our regional transportation system responsibly 
and that agency and numerous agency and area responders can do 
a better job, be prepared to do a better job, and how to react 
better in emergencies.
    It has been nearly 14 years since the terrorist attack of 
September 11. Since then, the National Capital region alone has 
received over a billion dollars in Federal taxpayer money and 
FEMA preparedness grant programs. In fact, the authority here 
has received over $200 million in Homeland Security grants--
these are significant amounts of money--to try to make us 
prepared. That was with a loss of life, but it was a small 
incident, and what we might have is this area again being the 
target of a terrorist act and face a much more horrific 
incident.
    Yet firefighters were unable to get timely and accurate 
information about the emergency and were unable to use their 
life-saving communication equipment in the tunnel and also in 
the station. Metro provides rescue training for regional first 
responders, and yet at the D.C. Council hearing last week we 
learned that only 100 D.C. firefighters attended this training 
session last year. Something's wrong when you have those 
numbers.
    According to D.C. fire, requests were made to Metro to 
cease all Metrorail traffic in and around L'Enfant Station so 
that the first responders had assurances they were safe from 
any train traffic. NTSB is investigating some of these 
allegations and also that this request initially fell on deaf 
ears.
    Had an opportunity yesterday to go down, hear from an NTSB 
representative, and visit NTSB. If you haven't done that, 
members, I highly recommend it. Only took about an hour, but 
you'll see some of the incredible work. Actually, looked at 
some of the equipment and some of the damage to rail items that 
were taken from that site that they are now inspecting. But the 
NTSB does a great job. And, again, I encourage members to go 
and see firsthand what they are doing.
    D.C. Metro is, in fact, one of the most important transit 
systems in the country. It serves our Nation's capital. It not 
only serves millions of Federal employees and daily commuters, 
but it also helps people from around the United States, some of 
them are constituents, people from around the world, come to 
this, our Capital City. And they should have a safe, reliable 
system. In fact, I checked this morning, and what are the 
figures here? About three-quarters of a million people a day 
use the Metro system. Over 200 million people a year use the 
Metro system. It is one of the most active in the Nation in any 
metropolitan area. Anyone who rides Metro should know it is 
safe and secure, and it is our responsibility to followup on 
that.
    While we're all pleased about the urgent recommendations 
and steps that NTSB has already made, and some of the steps 
that the city has taken to deal with the issues and problems 
that have been brought to light, there appears to be some 
commonsense solutions to all of these problems. Also, just the 
way we deal with Metro.
    I keep in my desk drawer some of my Metro cards. This is 
the one from New York City. I just pulled these out this 
morning. This is the one from here in the District. Okay. The 
back of the D.C. Metro card says, ``Know more. Know first,'' 
and it talks a little bit--this is fine print, I can barely 
read it, and I have some pretty good eyesight for my age.
    Mr. Connolly. Can I help you?
    Mr. Mica. No, I'm telling you, I can read it. It talks 
about you must produce this card for the police. It talks about 
a consumer hotline, I guess you can call. This is the D.C. 
card. Again, I just pulled these out of my drawer today. Here 
is the New York Metro card in huge bold letters, ``Subway 
emergency instructions,'' and then it tells you a little bit. I 
spoke to common sense. I guess emergency information on 
something like that is something we could even look at.
    So, again, I think this is a hearing to find out what went 
wrong and what we can do to make things right.
    Finally, as far as our committee and the transportation 
committee, I recall that we had done something in the MAP-21 
bill and following--this is in a report we're releasing today--
following the 2009 Fort Totten collision, NTSB called for 
enhanced statutory authority to get the authority from FTA 
because the agency was barred from performing adequate safety 
oversight on Washington Metro.
    With the enactment of MAP-21, our transportation bill, on 
July 6, 2012, FTA was granted authority--that's 3 years ago--
they were granted authority to oversee the safety of public 
transportation throughout the United States and also on Metro. 
So far FTA has not made any rules, not a single rule to 
increase safety of public transportation. However, last week 
FTA announced that it will audit Washington Metro safety 
procedures.
    So some things have been done to try to address this by 
Congress. Agencies were given authority to act and they did not 
act. So that's a concern and we'll address that.
    So, again, I hope this hearing can make an incident like 
this, again, a very sad memory, but something we could do 
better and learn from. So, again, I appreciate you all 
participating. I look forward to hearing from our witnesses.
    Let me turn to Ranking Member Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And thanks to you 
and Mr. Meadows for so graciously agreeing to have this 
hearing. It is of great import to all of us, but particularly 
all of us who represent parts of the National Capital region. 
And we really appreciate your willingness to do this for Mark 
and me at our first subcommittee hearing. So thank you.
    On January 12 public confidence in Metro was shaken once 
again by a deadly electrical arcing and smoke accident near 
L'Enfant Plaza that tragically took the life of one of our 
constituents in Virginia, Ms. Carol Glover. On behalf of every 
member of this committee, I know, we are offer our deepest 
condolences to her family and our sincere gratitude to the 
brave first responders and good samaritans, one of who is with 
us today, who acted courageously to help the passengers stuck 
on the smoke-filled Metro car, train number 302.
    We also want to take a moment to thank Mr. Jonathan Rogers, 
one of our witnesses today, who demonstrated tremendous courage 
and coolness under difficult circumstances in braving the 
deadly smoke to tend to his fellow passengers and to administer 
CPR to try and revive Mrs. Glover. We owe it to Mrs. Glover's 
family and all of the passengers on that train to do everything 
in our power not only to fully uncover why this accident took 
place, but to also integrate all lessons learned to ensure it 
never happens again.
    The Washington Metropolitan Area Transit Authority was 
established by an interState compact in 1967 to plan, develop, 
build, finance, and operate a balanced regional transportation 
system in the National Capital area. And one does need to take 
a moment here so that the narrative isn't only about what goes 
wrong. From nothing, this region built the second most utilized 
transit system in America and serves especially the Federal 
Government, the biggest customer, the most dependent, and the 
biggest beneficiary of Metro every day. When Metro doesn't 
function, the Federal Government has to shut down. And the 
Federal Government is the only entity not at the table 
providing an operating subsidy.
    The chairman mentioned that there is substantial financial 
support from the Federal Government. That's true, I guess, on 
the capital side. There's a 10-year plan. The Federal 
Government provides $150 million a year, and we very grateful 
to especially Mr. Mica for his support when he was chairman of 
the Transportation and Infrastructure Committee in that 
program. My predecessor Tom Davis in this job was instrumental 
in offering that legislation. But that's only for capital. 
There is not a dime of Federal money that goes into operating 
subsidies.
    So the subsidies are borne entirely by the local 
jurisdictions, even though, as the chairman points out, this is 
the Nation's capital subway and we bear the burden of 12 
million visitors who come to visit their Nation's capital every 
year, and it is somehow the responsibility and burden of the 
localities to absorb that without any Federal help, and that's 
a fact. I think we have to keep that in mind. The issue before 
us today is not really about resources, though it's always 
about resources.
    Metro is truly America's subway, as I said. Similar to all 
mass transit systems, it's not impervious to wear and tear 
brought on by time and millions of those riders. Prior to the 
incident last month, the horrific 2009 Fort Totten collision 
that killed 9 passengers and injured 80 more was a startling 
wake-up call that America's subway was aging, in need of major 
improvements.
    In the aftermath of that, the National Transportation 
Safety Board found that the 1970's era 1000 series cars were 
susceptible to telescoping during a collision, which resulted 
in the loss of lives when those trains collapsed like an 
accordion. As we discuss the errors and failures in the most 
recent arcing incident at L'Enfant Plaza it is vital that we 
not lose sight of the fact that WMATA faces zero-sum decisions 
with limited funding, and in many respects devoting the 
majority of its focus, time, and funding toward retiring those 
antiquated 1000 series cars, which Congress asked them to do. 
It was a logical strategic decision when one considers that 
Metro is a multibillion-dollar system that only benefits from 
millions in Federal assistance.
    I want to commend the NTSB for taking swift action earlier 
this week in issuing six urgent recommendations aimed at 
ensuring Metrorail's ventilation system is in good working 
order and that transit systems across the Nation are learning 
from the January 12 tragedy.
    However, one remains profoundly disappointed that the NTSB 
recommendations were even necessary. I'm stunned that WMATA 
even needed an independent Federal agency to remind it that the 
Metrorail system must have a ventilation system in good working 
order. The overwhelming majority of the Metro system in 
Washington, DC, is underground. It is not a new fact that we 
might have eventualities we have to respond to.
    Regrettably, our concerns have not been alleviated in 
preparing for this hearing. It was with great consternation, 
for example, that I reviewed a September 2007 NTSB accident 
report on the derailment of Chicago Transit Authority train 
number 220. It was very troubling to discover on page 49 of 
that report the following recommendation issued to the FTA: 
Inform all rail transit agencies about the circumstances of the 
July 11, 2006, CTA subway accident and urge them to examine and 
improve as necessary their ability to communicate with 
passengers, perform emergency evacuations from tunnel systems. 
Sound familiar? Including the ability, it goes on, to, one, 
identify the exact location of a train--hmm--locate a specific 
call box, and remove smoke from their tunnel systems. That was 
guidance issued in 2007 to all transit agencies, including 
Metro.
    It's very frustrating that WMATA appears to have possessed 
the requisite information to understand the real world 
consequences of malfunctioning ventilation systems and the need 
to examine its ability to remove smoke from Metro tunnel 
systems and yet appears not to have taken meaningful action 
over the past 7 years with respect to this important FTA 
guidance. We certainly want to examine that in this hearing.
    There is a troubling pattern where WMATA and D.C. Fire and 
Rescue appear to be repeating past mistakes. For example, in 
2007, two NTSB members expressed serious concerns that it took 
more than an hour to fully evacuate passengers from two 
Metrorail train cars after a derailment near Mt. Vernon 
Station. We knew about this as a problem years ago. What have 
we done to make sure our passengers are safe? And that's the 
purpose of today's hearing and we want to get at the truth.
    And so I appreciate very much our panelists being here 
today and our two chairmen for their graciousness in holding 
this hearing. I yield back.
    Mr. Mica. Thank you, Mr. Connolly.
    Mr. Mica. Let me now recognize Chairman Meadows of the 
Government Operations Subcommittee. Welcome. And I guess your 
first hearing. Congratulations.
    Mr. Meadows. Thank you, Mr. Chairman. And I want to 
personally start out by thanking the ranking member, my good 
friend Gerry Connolly. This particular incident we've already 
had a number of conversations about. Both of us were able to 
meet with the Mayor yesterday. And I think it sets a good 
foundation for hopefully getting to the bottom of not only this 
problem, but certainly some of the comments that continue to 
get made on a regular basis by the over 200 million riders that 
we have annually on the Metro system.
    So I'm going to deviate from my prepared remarks, primarily 
because the chairman and the ranking member have given you a 
lot of statistics, and all of those in the effort of not being 
redundant, I will not go into those. But first and foremost, 
today's hearing is really about ensuring that the Metro riders 
in our Nation's capital and the surrounding areas are as safe 
as possible.
    And as I mentioned, the D.C. Metro area covers some 200 
million riders annually. These are not just the hard-working 
citizens, although they are predominantly the ones who ride it 
each and every day. They are the ones that know where to go, 
which escalators to avoid, how to get down. As a neophyte to 
that, yesterday evening I went down, and I know that if you are 
not skilled you get run over. And so as I went down and 
actually participated in what millions of people do each and 
every week, I was able to look at it with a fresh eye and say, 
well, why is this happening, why is that happening? Shouldn't 
we have more money? You have two escalators coming up and one 
going down, shouldn't it by be the other way at this particular 
time of the day. And the people I was with said, well, at least 
your escalators are working.
    So as we see that, I can say that really more that we need 
to use this safety event as a wake-up call, not just because of 
the tragic nature of the safety event, but also to go further 
in terms of what we need to do to make sure that it is properly 
funded, properly maintained, and properly operated each and 
every day.
    So I'm going to close with this, because I put out on 
Twitter, I said, give me your recommendations, what do you 
think? I didn't realize how active the Twitter response would 
be. And so I'm going to read three Twitter responses, and this 
is kind of indicative of a plethora of others that we had. I 
had one that says, I've been commuting for 16 years (Federal 
worker) lack of accountability, poor management, info, general 
attitude of not caring. This is from a customer.
    I got another one who said, Increased fares for decreased 
service, fires on train. This was the one that concerned: 
Twitter being more reliable for info than WMATA. And the third 
one I'll read is, Thanks for asking, main problems fare hikes 
without improvements in service, safety hazards, and a lack of 
communication.
    Now, these are not my words. There are really hundreds of 
responses that would be very close to this. And so what I hope 
that we can do today is hear from the experts. That's why 
you're here, the experts, to give us different perspectives not 
only on safety, but what we need to go be doing going forward. 
I thank each of you for being here. I thank you for your 
attention to this matter. And I will yield back.
    Mr. Mica. Thank you, Mr. Meadows.
    Mr. Mica. And now welcome and also recognize today our 
acting ranking member, nice way to start out, Mr. DeSaulnier. 
You're from California?
    Mr. DeSaulnier. The San Francisco Bay area.
    Mr. Mica. Great. Well, welcome and congratulations.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
Chairman Meadows and the ranking member, Mr. Connolly, as well. 
And I want to share my condolences and concern for the entire 
metropolitan area from 3,000 miles away in California.
    I also want to thank NTSB for hosting me and others 
yesterday. It was very informative. And I'm also thankful of 
your reputation, which is well deserved.
    And to Mr. Rogers I want to add my thanks to you. You 
exemplified Tocqueville's observation about Americans many 
years ago that the genius of America resides in the simple 
truth that you can expect extraordinary things from ordinary 
Americans. So thank you for being here.
    As we all know, on January 12, 2015, an electrical breaker 
on one section of the third rail tripped, a Yellow Line train 
stopped in that tunnel, and the cars filled with smoke near the 
L'Enfant Plaza Metro Station. This incident unfortunately 
resulted in the death of a passenger and hospitalization of 
more than 80 riders. It raises serious concerns about 
maintenance, oversight, and safety, particularly for the many 
commuters in the D.C. metropolitan area which relies so 
seriously for this infrastructure every day.
    While this incident occurred in the D.C. area, it raises 
significant concerns about Federal oversight of mass transit 
systems nationwide. The Federal Transit Administration is 
charged with issuing safety regulations and a national safety 
plan, but has failed to do so. And as an aside, in the report 
in our binder it is signed by a deputy FTA administrator who I 
used to work for--work with, I should say, Freudian slip--when 
I served 10 years on the Bay area's metropolitan planning 
organization, the Metropolitan Transportation Commission. And I 
know she's a consummate professional, Therese McMillan.
    In addition, it appears that recommendations made to Metro 
by the National Transportation Safety Board after previous 
safety incidents were not fully implemented. So just to be 
clear, Metro has deficiencies to answer for, but so do Federal 
regulators. As Mr. Connolly said, Metro is America's subway and 
this has national implications. For those of us who have fought 
for increased transit in regional and local and State 
government, and believe that Americans, particularly younger 
Americans, as we become even more urbanized, need choices when 
it comes to transportation in congested areas like Washington, 
DC, New York, Chicago, Los Angeles, and San Francisco. We want 
to give commuters choices, and that requires reliability and 
safety of all our transit operators.
    In California we understand the need for safety for riders 
and workers and transit facilities. The Bay Area Rapid Transit 
agency is a large transit system, although not nearly as large 
as Metro, serving 450,000 riders on average every day. When a 
tragic accident occurred in October 2013 when two BART workers 
were killed, we started a thorough investigation with NTSB and 
with State officials, and we are still examining particularly 
the safety culture that led to that incident.
    I look forward to fully examining why there was a delay in 
evacuating passengers, why the ventilation system was not 
working properly, and why first responders were unable to open 
the train doors or communicate on their radios. I also want to 
fully understand the specific causes of this incident and do 
what is necessary to ensure that, as Mr. Connolly says, this 
never happens again. I look forward to hearing from the 
witnesses and finding answers to these questions. I appreciate 
the committee's interest in this important issue and thank the 
chairs once again for hosting this important hearing.
    And then last, I have particular concerns over safety 
culture. We know that safety culture is not some unimaginable, 
hard-to-define issue, whether it is in hospitals or refineries, 
chemical plants, or manufacturing facilities, or any government 
agency. It is real, it is palatable. And I will say I'm very 
concerned about the comments represented by the rank-and-file 
workers. I look forward to asking questions of the governing 
board and the representative of the rank-and-file workers in my 
questions.
    Thank you, Mr. Chairman. I yield back.
    Mr. Mica. Thank you.
    Mr. Mica. And other members seek recognition? Ms. Norton. 
The gentlelady from the District is recognized.
    Ms. Norton. Chairman Mica, just a word, first of thanks to 
my good friends, Mr. Mica and Mr. Meadows. You will note that 
this is a joint hearing, and I do believe that that indicates 
the importance of this hearing to the Federal Government. You 
can call this America's subway all you want to, and for all 
intents and purposes a Federal subway because it's essential to 
the functioning of the operations of the Federal Government. 
And, yes, it is essential to our constituents here in the 
National Capital region.
    There have already been, and I want to thank the multiple 
parties for the hearings, briefings and hearings in the 
Congress and in the District and early reports from NTSB. And 
we see WMATA already beginning, before the report is done, to 
make corrections, and we are enormously grateful for that. And 
I do believe it restores or helps restore confidence in the 
system.
    I simply want to say that after the great tragedy of 2009 
when we lost nine residents, all nine of them lived in the 
District of Columbia, it doesn't matter where they lived, this 
time we lost one resident who lived in Virginia, it is a 
personal tragedy, it is a regional tragedy.
    The reason that this tragedy bothers me so much is if we 
look back to 2009 we can trace that tragedy to a rather even 
hard-to-understand technical problem with the equipment. Think 
about the cause of this tragedy. Think about the fact that 
we're dealing with what everybody would regard as the ABCs of 
running a common carrier, being able to communicate from the 
surface to underground, making sure that the smoke goes the 
right rather than the wrong way. My friends, I can think of 
nothing worse than being smoked to death underground, in a 
subway. That's what happened here.
    The communication problems were perfectly foreseeable. 
Getting the fans working in the right way was what everybody 
assumed was happening all the time. So my concern for this 
tragedy is even greater than the 2009 tragedy, greater because 
I think we had foreseeable problems and because something went 
clearly wrong here. That's why I'm so grateful to my good 
friends for calling a hearing which I think is perfectly 
appropriate because this is a system that the Federal 
Government itself depends upon.
    Thank you again, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Mica. Do other members seek recognition?
    OK. Since there are no other members seeking, did you, 
Mr.----
    Mr. Beyer. I will wait for questions.
    Mr. Mica. OK. Wait for questions. Very good.
    Then what we will do now is we will turn to our witnesses. 
And members will have 5 legislative days who would like to 
submit a written Statement. Without objection, so ordered.
    Mr. Mica. Let me first introduce and welcome our witnesses. 
First, welcome Jonathan Rogers, a Metro passenger who was 
present on January 12 at the Metro incident. The Honorable 
Christopher Hart, acting chairman of the National 
Transportation Safety Board. Mr. Mort Downey, he is the 
chairman of the Board of Directors of the Washington 
Metropolitan Area Transit Authority. And he's also, I 
understand, accompanied by a panel of experts behind him. And 
we have Mr. Edward Mills, assistant fire chief, who is in 
charge of operations of the D.C. Fire Emergency Medical Rescue 
Services Department. And Ms. Jackie Jeter, and she is president 
and business agent for Amalgamated Transit Union, Local 689.
    Let me see, the ones that are accompanying Mr. Downey, Mr. 
Downey, are they going to also to be called on to----
    Mr. Downey. Only if something comes up.
    Mr. Mica. Can you identify them?
    Mr. Downey. Yes. I'm accompanied by Chief Ron Pavlik, the 
chief of the Metropolitan Transit Police Department, and also 
Jack Requa, who is the interim general manager of Metro. They 
are sitting behind me.
    Mr. Mica. OK. So what we will do, this is an investigations 
and oversight subcommittee of Congress joint hearing today, and 
we do swear in all of our witnesses. I'd ask the gentlemen that 
were just identified to also stand, our witnesses to stand 
please, be sworn in.
    Could you raise your right hand? Do you solemnly swear or 
affirm that the testimony you're about to give before these two 
subcommittees of Congress is the whole truth and nothing but 
the truth?
    Let the record reflect that all of the witnesses answered 
in the affirmative.
    So with that we have got some new witnesses, particularly 
Mr. Rogers, to testify in Congress and this panel. We try to 
ask you to limit your remarks to about 5 minutes. If you have 
additional information or some background you'd like to be made 
part of the record, just a simple request to the chair and 
we'll put it into the record.
    With that, again, we welcome Mr. Jonathan Rogers, who was a 
passenger on that fateful day.
    Welcome, sir, and you are recognized. You'll have to turn 
you mic on and pull it up as close as you can, Mr. Rogers.

                       WITNESS STATEMENTS

                  STATEMENT OF JONATHAN ROGERS


    Mr. Rogers. Is that good? Thank you.
    Honorable members of the committee, thank you for the 
opportunity to testify today. My name is Jonathan Rogers and I 
have been a resident of the District of Columbia for 7 years.
    On the afternoon of January 12, 2015, I departed a 
conference at the Walter E. Washington Convention Center to 
return to my office in the Navy Yard neighborhood of 
Washington, DC. At the Mt. Vernon Square-Convention Center 
Station I mistakenly boarded a Yellow Line train headed for 
Huntington. I boarded the second car from the front of the 
train and according to WMATA's usage history report from my 
SmarTrip card, I entered the station at exactly 3 p.m. I can 
accurately confirm the timeline of events that followed with 
electronic time stamps from smartphone pictures I took that 
afternoon.
    By coincidence, I took my first photo at 3:11 p.m., shortly 
before the trained reached L'Enfant Plaza, and that photo 
depicts a normal, safe experience on the Metro train. After the 
train departed the L'Enfant Plaza Station, we entered a tunnel, 
and after approximately 10 seconds the train came to an abrupt 
halt. The train conductor announced over the intercom, there's 
a problem, everyone stay calm. Within seconds, gray-colored 
smoke was visible as it seeped through the tops of the 
passenger doors. A passenger on our car used the emergency 
intercom to alert someone that there was smoke on the train.
    We heard no response, and shortly thereafter the train 
conductor entered our car and made his way to the back of the 
train. The conductor was using his radio to communicate with 
central. I only heard him describing the situation on the 
train. I didn't hear any responses to the conductor's messages. 
Eventually he passed through our car again on his way back to 
the front of the train.
    In the first of several announcements, the conductor 
informed us over the intercom that we should remain clam, the 
train was going to make its way backward to L'Enfant Plaza to 
escape the smoke. We were told not to evacuate the train and 
not to open the doors because the train would not be able to 
move if we did so. Further, there was zero visibility in the 
tunnel, and the conductor repeated the same message nearly 
every 2 minutes until the train was evacuated.
    At one point, the conductor assured passengers that there 
was no fire in the tunnel, only smoke. Approximately 5 minutes 
after the smoke had entered the train, the train lurched 
backward but failed to move, and by this point only the 
emergency lights above the doors were lit and the train was 
dark and filling with thick smoke.
    The next photo I took was at 3:20 p.m., which was several 
minutes after the smoke had become thick. So as a very 
conservative estimate one could mark the beginning of the 
incident at that time, 3:20 p.m.
    The video I took was recorded at 3:25 p.m. which captures 
passengers struggling to breathe and also a portion of the 
train conductor's announcements. Verbatim the announcement was, 
once again, customers, please stay calm, please stay calm. 
We've got one train about to get off the platform at L'Enfant 
Plaza right now as we speak. As soon as this train leaves, I 
will be getting you all back to the platform. Please stay calm. 
Please do not open the doors. If you open the doors, the train 
will not move.
    In the photo I believed to be the last I took before giving 
CPR to Mrs. Glover--sorry--other passengers were laying on the 
ground at 3:39 p.m. The next photo I took was at 4:01 p.m., 
where it appears passengers are standing as we lined up to 
evacuate the train. At no point were we ever told that we would 
be evacuating and walking back to the platform. A line moving 
toward the back of the train seemed to form on its own.
    The next photo I took was at 4:20 p.m. as the line had 
slowly advanced toward the back of the train. This photo 
depicts firefighters evacuating a passenger who is having a 
seizure after other first responders had performed CPR on him. 
This was the first time I saw any first responders. I can't 
speak for when they arrived at the train, but this was the 
first time I saw them.
    Firefighters then guided us out of the side passenger doors 
onto a narrow walkway on the side of the tunnel. We followed a 
single file line back toward the station with help from 
firefighters on the tracks lighting the way with their 
flashlights. The last photo I took was during that walk at 4:22 
p.m., over an hour after the incident began.
    Once we reached the station platform, we proceeded up the 
escalators to the street level. Naturally the scene outside was 
chaotic, and some passengers sought the help of first 
responders, while others just went on their way. I lingered in 
the area for a few minutes. No one directed me toward an 
ambulance or any other medical attention.
    Thank you for the opportunity to testify today, and I'd be 
happy to answer any questions you might have.
    [Prepared Statement of Mr. Rogers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Well, hold the questions. I don't know, can you 
queue the video that we've got that Mr. Rogers took? See if 
we've got that?
    I know they flashed some of the pictures during your 
testimony of the pictures that you took.
    [Video shown.]
    Mr. Mica. Well, Mr. Rogers, we thank you for providing us 
with not only the documentary of the incident and the horrific 
experience, but also for your heroic act in trying to save that 
passenger. So thank you very much on behalf of the full 
committee. I know everyone appreciates it.
    So now I'll turn to Mr. Hart and welcome him, and he is the 
acting chairman of the NTSB.
    Welcome, Mr. Hart, and you're recognized.


                STATEMENT OF CHRISTOPHER A. HART


    Mr. Hart. Thank you, Mr. Chairman Mica and Chairman Meadows 
and Ranking Members Connolly and DeSaulnier, for inviting me to 
testify today on behalf of the NTSB.
    The NTSB is an independent Federal agency that Congress 
created to investigate transportation accidents and incidents. 
We determine the probable cause and issue safety 
recommendations in an effort to prevent future mishaps. We have 
investigated mass transit accidents and issued recommendations 
about them for more than 40 years. It's a mode of 
transportation that is used by millions of people every day and 
safety is our utmost concern.
    The NTSB included mass transit safety in its 2015 most 
wanted list to increase awareness of and support for the most 
critical changes that are needed to reduce mass transit 
accidents and incidents and save lives.
    With that introduction, let me turn to this accident. On 
January 12 at about 3:15 p.m., Metro train 302 stopped in a 
Yellow Line tunnel south of the L'Enfant Plaza Metro Station 
because it encountered heavy smoke, as you've already heard.The 
train following train 302, which was train 510, had entered the 
L'Enfant Plaza Station and stopped about 100 feet from the 
south end of the platform because of the smoke in that station.
    WMATA police and D.C. fire and emergency medical services 
helped to evacuate passengers from the L'Enfant Plaza Station. 
Some passengers on train 302 self-evacuated through the tunnel 
either to L'Enfant Plaza or toward the Potomac River Bridge, 
but others, most others, remained on the train. Unfortunately, 
one person died and scores required medical treatment as a 
result of this accident. And I would join with the members in 
extending our condolences to the family and friends of Mrs. 
Glover.
    We know now that the smoke was the result of an electrical 
arcing event. NTSB has collected evidence from the site, which 
Chairman Mica and Mr. DeSaulnier and others of you had the 
opportunity to see in our laboratory. We thank you for coming 
to visit to see it up close and personal. We're looking at that 
to determine what caused the arcing event.
    Also, we are aware of the various accounts of the emergency 
response that day. Many of these accounts have not been helpful 
to our safety investigation because they are often out of 
context and not validated or corroborated, and thus they are 
not helpful as a valid basis for drawing useful conclusions. We 
will issue the complete facts, but we are reluctant to issue 
any facts until we have the complete facts around that 
situation in order to avoid misinterpreting and out-of-context 
analysis.
    To date, the NTSB has gathered a great deal of information 
and continues to review data to validate it and provide an 
unbiased account of the facts of that day. Our investigators 
will look at many factors, including conditions leading to the 
arcing itself, emergency response efforts, emergency 
communications and interoperability, WMATA's efforts to improve 
its overall safety and safety culture since its Fort Totten 
accident in 2009, the State of WMATA's infrastructure and State 
of good repair, the Federal Transit Administration's rulemaking 
on public transportation safety, and the Tri-State Oversight 
Committee's oversight responsibility.
    There is still much work to be done to produce a final 
investigative report. As part of this process, we will hold a 
public investigative hearing on June 23 and 24 to gather 
additional investigative information and to add to the public's 
knowledge about the events of that day.
    But as this investigation continues, we issue urgent 
recommendations if we identify safety issues in the course of 
any investigation that warrant immediate attention. More 
specifically, we issued three urgent recommendations to WMATA 
earlier this week regarding its ventilation system. These 
recommendations are about providing guidance and training on 
how to use the ventilation system, how to ensure that these 
procedures conform to best practices, and checking to make sure 
that the ventilation system is in working order.
    The recommendation about improved processes in response to 
smoke events and about training regarding those processes 
results from our discovering in the investigation that the 
ventilation fans could have been used more effectively to 
remove the smoke from the tunnel. We also learned that one of 
the smoke alarms ahead of train 302, which was very close to 
the arcing event, activated several minutes before that train 
left the L'Enfant Plaza Station. So one of the issues we will 
be looking at is to what extent are those alarms apparent in 
the control center and how do they react when they see a smoke 
alarm in front of a train.
    Are these safety issued limited to WMATA? We do not know. 
In order to obtain assessments of ventilation systems in other 
transit systems, perhaps in your own districts, we also issued 
an urgent recommendation to the Federal Transit Administration 
to audit such ventilation systems in transit agencies under its 
regulatory purview and companion recommendations to the 
American Public Transportation Association, or APTA, to apply 
these accident lessons even more broadly.
    Our goals, as always, are to prevent accidents and prevent 
or mitigate the severity of injuries in any future event. And 
we will issue more recommendations if needed as the 
investigation proceeds. We must work to ensure that the 
circumstances of this event do not occur again, here or in any 
other transit system.
    Thank you for inviting me to testify today, and I look 
forward to responding to your questions.
    Mr. Mica. Thank you, Mr. Hart.
    [Prepared Statement of Mr. Hart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
       
    
    Mr. Mica. We will now turn to Mr. Mort Downey. He chairs 
the Board of Directors of the Washington Metropolitan Area 
Transit Authority.
    Welcome, and you're recognized.


               STATEMENT OF MORTIMER L. DOWNEY III


    Mr. Downey. Thank you, Chairman Mica and Chairman Meadows, 
Acting Ranking Member DeSaulnier, and my Congressman, Gerry 
Connolly to be here. I am Mort Downey, recently elected chair 
of the Board of Directors of Metro, and a regular Metro rider 
over the last 20 years, and a New York City subway rider for 30 
years before that. So I am familiar with these systems.
    First, I have to say on behalf of the board we were 
devaStated by the outcome of this event. We have expressed and 
continue to express our condolences to the family of Carol 
Glover, who lost her life. And obviously we thank all of the 
first responders, our employees and the members of the public 
who came to the aid of our customers during that incident.
    As Chairman Hart identified, an investigation by the NTSB 
is now underway. Metro is fully engaged and cooperating with 
what Chairman Hart outlined is a very comprehensive look at 
where we are in terms of safety. The fact there is an empty 
chair between the chairman and myself is not an indication that 
we are not working closely together. We are joined at the hip 
on this investigation. And we stand ready to act on NTSB 
recommendations, including any preliminary findings.
    Just 2 days ago, the chairman issued the first 
recommendations adopted by the NTSB, not only to us, but to the 
entire transit industry concerning the tunnel ventilation 
system. Even before those recommendations were in our hands, 
Metro had already conducted a systemwide inspection of all the 
tunnel fan shafts, and at that point found them to be in good 
working order. We also provided retraining to the 39 
controllers at the Rail Operations Control Center in terms of 
proper use the fans. We are now in the process of developing 
additional protocol and training.
    But as the NTSB continues its review we are not waiting. 
Yesterday, having looked at the findings that were in our 
hands, I directed Metro's chief safety officer, Jim Dougherty, 
to identify an independent expert panel organization who could 
review for us the Metrorail Operations Control Center, its 
equipment, its procedures, the training, the information that 
they have in place. To run a world class transit system we have 
to have a fully operational, fully dependable operations 
control center. Decisions are made there that obviously affect 
the lives of our customers, and we'd like to get a good look by 
fresh eyes as to how that control center works.
    We've also identified and begun to implement 10 early 
safety actions based on our own assessments. These 10 include 
such steps as signage being installed on the outside of all of 
our railcars to identify the doors that are readily accessible 
and openable without a key from someone on the ground or on a 
platform to get passengers out.
    We obviously train first responders on how to access the 
railcars. We want to add that on-the-site information that they 
would need. We also have given train operators independent 
authority should they encounter a smoke incident to immediately 
turn off the vent system in the train that's bringing air into 
the train. That formerly, for whatever reason, was something 
they needed permission to do. We want our employees to act on 
their own ideas of what needs to be done. And as I said, we 
have reviewed the protocols for our employees at the Rail 
Control Center but intend to do more there.
    As another early action, our Office of Emergency 
Management, which is under the supervision of the Police 
Department, has created an enhanced schedule for full-scale 
emergency drills to be conducted with scheduling allowed for 3 
years, not that we will stop after that point, but to give the 
jurisdictions clear indication of when those drills will occur, 
where they will occur, some will be underground, some will be 
on aerial structures, some will be in stations. It is an 
additional opportunity for us and the jurisdictions and the law 
enforcement and response agencies to test their capabilities, 
to build coordination, and to practice unified command in a 
real-life setting.
    We are also working with the region's fire chiefs through 
the Council of Governments to establish regular radio testing 
and reporting protocols. As you've heard, each jurisdiction has 
its own radio system, but we have to make sure that they are 
workable inside the tunnel environment. It is not that we'll 
all be on the same radios, the issue is that everybody's radios 
will work and that we can communicate to Metro employees, fire 
and rescue can communicate to their people, and at the top 
chain in the incident command they can communicate with each 
other. And there will be regular testing and reporting of the 
status of the system so that we're all aware if anything needs 
to be fixed.
    We mentioned Homeland Security earlier. We are an open 
system. There are unique challenges in maintaining the security 
of the system. We are grateful for the support that has come to 
install equipment and to build additional facilities. We are 
using that. We have now cameras throughout the system to 
capture what's going on. We are also, as you know, rebuilding 
the system with a capital program to take a 39-year-old system 
and begin to put it back in the shape that it should be in. 
There are a lot of things, the new railcars are a key part of 
that, but there are upgrades of tracks, structures, signal 
systems.
    We have developed safety programs, some that we've actually 
created on our own. A roadway worker training program for those 
employees who are out working on the tracks. A Close Call 
program where we get the cooperation of all employees to bring 
to our attention, either directly to us or anonymously through 
a Federal agency, anything that has happened that we should 
know about that we could build safety improvements on that. We 
also implemented a Fatigue Management System, the first on any 
transit property, to be sure that our employees are not being 
called to work longer hours than are helpful.
    When I joined the board, there were 29 open recommendations 
from the NTSB stemming from Fort Totten and earlier accidents. 
Twenty-five of those are closed, four are still open but are in 
an acceptable condition, at least as far as the Safety Board is 
concerned. We are working to finish all of them. We have closed 
all but one recommendation from Federal Transit based on a 
review they produced in 2012. We will be welcoming them back in 
the next few weeks to start another review of the safety 
culture and the safety achievements in the system. It is still 
our No. 1 focus.
    I believe we've made real progress, but we cannot claim 
that we are where we need to be. In the face of this event, we 
need to do more and we will do more, not only for ourselves, 
but with our partners, but primarily for the customers and 
riders and public in this region who need to depend on us. So I 
thank you for the opportunity to be here, and I also will be 
happy to answer your questions.
    Mr. Mica. Thank you, Mr. Downey.
    [Prepared Statement of Mr. Downey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Mica. And we'll turn to Mr. Edward Mills, the assistant 
fire chief for the District of Columbia.
    Welcome, sir. And you're recognized.


                  STATEMENT OF EDWARD R. MILLS


    Mr. Mills. Good morning. Good morning, members of the 
Transportation and Public Assets and Government Operations 
Subcommittee. My name is Edward Mills. I currently serve as the 
assistant fire chief with the District of Columbia Fire 
Department. As this is my first time before Congress, let me 
take a moment to introduce myself and the position for which I 
serve. My role is to oversee emerging operations for the 
District of Columbia Fire and Emergency Medical Services 
Department, to coordinate with other public safety agencies and 
Federal partners, including WMATA, to prevent, protect, 
mitigate, respond to, and recover from disasters and 
emergencies. I've spent 36 years of dedicated service in the 
Fire and Rescue Service, 18 years in Prince William County as 
both a career and volunteer firefighter, as well as 18 years 
with the District of Columbia Fire Department.
    I thank you for allowing me the opportunity to discuss the 
District's response to the January 12 incident at the L'Enfant 
Plaza Metro. I will provide a brief summary of the incident, 
our response to it, and corrective steps we have already taken. 
I also want to State from the outset that the suffering that 
occurred during and as a result of the January 12 incident and 
tragedy, I extend my sympathies to the family of Mrs. Carol 
Glover and everyone else who was injured or went through that 
terrifying experience that day.
    I want to assure the committee and the public that on 
January 12 my department responded quickly, acted bravely, and 
conducted rescue efforts that led to a positive outcome of the 
incident. I'm grateful that the Mayor Bowser administration has 
taken immediate steps to address issues identified by our 
preliminary reviews, which I believe will improve safety 
precautions. The administration has also taken the 
unprecedented steps of releasing 911 call transcripts and 
providing a thorough chronology of the events. In doing so, our 
goal was not to assign blame, but to be open and transparent 
with our residents, visitors, and Metro riders. We want to 
assure the residents and visitors of the District of Columbia 
that our department is prepared to handle any type of emergency 
at any time.
    The incident inside the L'Enfant Plaza Metro Station, 
according to a publicly released NTSB preliminary report, on 
January 12, 2015, at approximately 3:06 p.m., an electrical 
breaker at one end of a section of third rail tripped or 
remained open. At approximately 3:15 p.m., moments after it 
departed southbound from L'Enfant Plaza Metro Station toward 
the Potomac River Bridge, a six-car Yellow Line train 
encountered heavy smoke and came to a complete stop in the 
tunnel.
    After stopping, the rear of the Metro train was about 386 
feet from the south end of the L'Enfant Metro Station. A second 
six-car train arrived at L'Enfant Plaza at approximately 3:25 
p.m.And was also affected by heavy smoke. This second train 
stopped, allowing its passengers to exit the train and evacuate 
from the station.
    At 3:18, the Office of Unified Communications received a 
911 call from a construction worker who reported smoke coming 
from a Metro ventilation shaft at 9th and Water Street SW. The 
Office of Unified Communications dispatched Fire and EMS units 
at 3:22 p.m. They arrived on scene at 3:25 p.m. The two 
responding units reported the smell of smoke emitting from the 
grate of the ventilation shaft.
    Approximately 5 minutes after responding on the scene, 
responders observed two individuals in the ventilation shaft 
who apparently had self-evacuated from that stranded train. The 
responders notified their battalion fire chief, opened the 
ventilation shaft doors, descended approximately 50 to 75 feet 
to assist and evacuate those two individuals.
    The second emergency call from a WMATA supervisor was 
received by the Office of Unified Communications at 3:22 p.m. 
The WMATA supervisor reported heavy smoke in the upper level of 
the L'Enfant Plaza Metro Station. A subsequent call from a 
different WMATA employee was received at 3:24. The caller 
requested medics and Fire units to L'Enfant Plaza Metro Station 
due to smoke in the station and individuals having difficulty 
breathing.
    At 3:28, the Office of Unified Communications dispatched a 
Metro station box alarm to L'Enfant Plaza Metro. The first 
unit, Rescue Squad 1, arrived on the scene at 3:31 p.m. The 
first MPD unit from the 1st District arrived on the scene 1 
minute later. At 3:33 p.m., Engine 4, Engine 18, and EMS 6 
arrived on the scene, followed by Engine 23, Engine 10, and 
Engine 1.
    I want to make it clear that within 8 minutes of the time 
of dispatch, seven units from D.C. Fire and EMS were on the 
scene at L'Enfant Plaza Metro. I also want to emphasize the 
point that Fire and EMS responders at this point did not know 
there was a train in the tunnel filled with passengers. The 
only information we had received at that point was there was 
heavy smoke in the Metro station.
    Under Fire and EMS protocol, a Metro station box alarm 
consists of five engine companies, two ladder trucks, two 
battalion chiefs, one battalion chief responds to the Metro 
Operations Control Center in Landover, Maryland, one heavy 
rescue squad, one basic life support unit, and one advanced 
life support unit, along with one EMS supervisor. The first 
unit on the scene, Rescue Squad 1, who arrived at 3:31, made 
their way down into the platform level where they were met by 
members of the Metro Transit Police Department. And at that 
point, that was the first time we had any indication of a train 
being stuck in the tunnel.
    I arrived on the scene at approximately 3:35 and 
immediately assessed the ongoing situation. I did a face-to-
face communications with the on-scene deputy fire chief, 
established unified command with the Metro fire marshal, as 
well as a member from the Metro Transit Police Department.
    The first responders had encountered a smoke-filled Metro 
station with numerous individuals evacuating the station or 
just having evacuated at the street level. Responders began 
assisting these individuals, as these people had soot around 
their noses and mouths which may indicate potential respiratory 
burns.
    As first responders moved to the lower level platform, they 
first encountered an empty Metro train at the platform in an 
evacuated station. That did lead to some confusion as to 
whether that was the train in question. At that point, until 
they met with the transit police officers, it was not clear. So 
the train in the tunnel was still in question at that time.
    One group of first responders, Recon 1, entered the Metro 
tunnel following the catwalk alongside the train tracks. As you 
move down into the tunnel, the tunnel split for the Orange or 
the Yellow Line and the Green Line. The first group went down 
the side with the Green Line, shut the power off at the blue 
light station, and continued down. At that point, the crew from 
Rescue Squad 1 went to the opposite tunnel where they located 
the Yellow Line train approximately 386 feet into the tunnel, 
disabled the power by the blue light station, and at that point 
had made their way to the train and asked the passengers to 
open the door. Once they couldn't open the door, they moved to 
the side where they had the keys to be able to open the door 
and start evacuating the passengers.
    Although their actions violated our department's written 
protocols, once they were informed that there were passengers 
on a stranded train in the tunnel, they did make their way down 
to start assisting those individuals trapped. When they made it 
to the train and immediately got into the train to triage the 
individuals, a short time after they came across Mrs. Glover, 
brought her out, and made sure that she was headed back to the 
platform level.
    Yet once the first responders realized they were dealing 
with an incredibly serious situation with a train full of 
passengers, they did not wait for confirmation that the power 
was down. Instead, they acted, went into the tunnel filled with 
heavy smoke, had near zero visibility, and because they heard 
and felt the Orange and Blue Line trains entering the station 
on the lower-level tracks, there were still questions as to 
whether the power had been completely shut down. Yet they 
ignored these significant risks to themselves and made their 
way forward to help the stranded passengers.
    Once Rescue Squad 1 reached the train, they attempted to 
open the emergency exit door, as I Stated before. As they 
started removing the passengers, they were able to move them to 
the catwalk, which is 22 inches wide, which required us to make 
a single-file line and move the passengers out in an orderly 
manner. The Statement by the lieutenant from Rescue Squad 1 did 
acknowledge how cooperative the passengers on the train, for 
what they were going through, were, and we were grateful for 
their cooperation.
    In total, Fire and EMS treated several hundred individuals 
who were on the train. Eighty-four of those individuals were 
transported to local hospitals.
    During the incident, Fire and EMS personnel encountered 
difficulty communicating with each other inside the Metro 
station using traditional radio communications channels. Let me 
provide some context to that. D.C. Fire and EMS operate using 
16 radio channels and has used those same channels since the 
year 2000. The technology used to operate this radio system was 
installed in 2004, or upgraded in 2004, and is maintained by 
the Office of Unified Communications. However, in the WMATA 
system, all below-ground communications equipment is maintained 
by WMATA, including bidirectional amplifiers in the tunnels. 
These amplifiers, including those in the tunnel at L'Enfant 
Plaza, are design to boost radio transmissions and allow those 
transmissions to work underground. If the bidirectional 
amplifiers in an underground WMATA tunnel are not working, 
radio communications will be interrupted.
    The P25 radio system that went into effect in December 
2014, while some of those 16 channels used by Fire and EMS 
became encrypted for us to utilize on incidents requiring 
sensitive communications, such as terrorist-type incidents, 
administrative communications, and joint operations involving 
criminal matters with law enforcement, all the radio channels 
used by Fire and EMS, both encrypted and unencrypted, failed to 
work that day. The bidirectional amplifiers in the L'Enfant 
Plaza tunnel were not working on January 12. As a result, all 
below-ground radio communications were interrupted during the 
response.
    I hasten to add that when we established an aboveground 
treatment and triage area for the people that we were 
evacuating, all of our radio channels, encrypted and 
unencrypted, worked the way we expected them to.
    Finally, we've learned that on January 8, during a 
subsequent response to the L'Enfant Metro Station, units 
responding that day experienced radio failures. Those failures 
were reported to WMATA, and WMATA responded to Fire and EMS 
that the problem appeared to be equipment issues within the 
station. Responders on January 12 had to use a variety of 
alternate means of communications, including cell phones, 
direct talk communications, and face-to-face communications 
within the tunnel. Mayor Bowser has instructed the Office of 
Unified Communications, in conjunction with WMATA, to conduct 
weekly testing of radios at all Metro stations in the District. 
We are aware that some of the surrounding jurisdictions have 
also implemented testing on their own Metro facilities within 
their jurisdictions.
    The results of the weekly OUC testings are shared with 
WMATA, which is responsible for taking corrective actions. 
During radio testing conducted the week of January 19, the 
Office of Unified Communications identified nine Metro 
facilities on the Red, Green, Orange, and Blue Lines that 
failed inspection. During OUC's reinspection of all of those 
Metro facilities, additional failures have been found and are 
all under repair. These tests will continue on a weekly basis 
for the foreseeable future.
    In addition to the Fire and EMS initial report, HSEMA also 
produced an initial District of Columbia report on the L'Enfant 
Metro Station which highlighted many of these failures. OUC 
testing included the Metro station entrance, both ends, and 
middle of the train at platform levels and the specific areas 
of failure were noted and Office of Unified Communications 
provided that information to WMATA.
    Additionally, Fire and EMS has reissued a protocol to its 
members on the proper alternative means of communications when 
radio coverage in suboptimal or down locations, and Fire and 
EMS and OUC are working collectively with WMATA to identify and 
immediately address these communication issues.
    Currently, NTSB is conducting an investigation into the 
incident. Mayor Bowser has ordered all District agencies to 
fully cooperate with that investigation. Fire and EMS has 
worked with NTSB to interview responders who were first on the 
scene, as well as to provide access to any documentation 
required by NTSB.
    And as a final and important point in my prepared 
testimony, let me emphasize the Mayor is committed to being 
transparent about information related to the incident. We have 
worked diligently to release as many details as we can to help 
the public make sense of the tragic events of that day. The 
mayor has committed to using all information related to the 
incident, including that which will be in the NTSB report, to 
help improve the District's response to and from the public 
homeland security incidents.
    Mr. Mica. Thank you, Chief Mills.
    [Prepared Statement of Mr. Mills follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    Mr. Mica. And we'll hear our last witness, Jackie Jeter. 
And she's president and business agent of Amalgamated Transit 
Union, Local 689.
    Welcome. And you're recognized.


                  STATEMENT OF JACKIE L. JETER


    Ms. Jeter. Thank you. Good morning, Mr. Chairman and full 
ranking committee members. Thank you for allowing the ATU to be 
a part of this hearing. We offer condolences to all those 
involved in the accident.
    I'm Jackie Jeter, president of ATU Local 689. Five years 
ago, after the tragic June 2009 Red Line accident, Local 689 
testified in support of retraining plans, routine 
recertification, and equipment upgrades. We Stated our belief 
that the cultivation of a safety culture at the Washington 
Metropolitan Area Transit Authority would not only benefit our 
members, but just as importantly, the riding public.
    I am here today to testify to the troubling fact that our 
system is still lacking acceptance of the need of a safety 
culture at WMATA. While we commend the improvements made since 
the 2009 accident, we must point out the task of developing a 
safety culture has not been met.
    When I speak of a safety culture, I'm referring to overall 
attitudes, beliefs, and atmosphere that is cultivated at WMATA. 
We must have everyone, from the GM to the least senior, 
invested in making sure that safety is our No. 1 priority. This 
attitude must be reinforced from the top to the bottom with 
assurances that all the rules that are created are implemented 
fairly. Think about it. People experience a sense of pride when 
they are treated with dignity on the job, when their opinions 
are valued, their family responsibilities are respected, and 
they have a feeling of ownership through job security.
    As president, I hear the complaints of the lack of morale 
and confidence in the handling of our care. The majority of the 
employees of WMATA do not have comfort in the feeling of 
overall safety. A safety culture can only be effective when all 
employees are confident that their opinion and work ethic is 
valued. An essential part of establishing a safety culture is 
providing employees with the opportunity to express suggestions 
and comments when they experience safety concerns.
    Because of the lack of those feelings, our members have 
developed a sense of paranoia. It is difficult to get them to 
trust that WMATA will handle the information that they give 
with care.
    We believe change takes constant investment in workers, as 
well as property. It takes the acceptance of ideas, trust in 
their ability to build confidence in WMATA's efforts, the 
efforts of their coworkers' skills, and the implementation of 
safety initiatives that protect and build confidence on their 
behalf.
    I have Stated to officials of WMATA openly that they cannot 
discipline their way to a right and just safety culture. 
WMATA's procedure implies that a safety culture can be 
developed with the sole use of discipline instead of 
implementing constant, intense training procedures. Training 
will prepare the employees for catastrophic events like June 
12. Most of our members are not sent to safety training until 
they make a mistake. We do not have a training program that 
employees can freely attend to enhance their skill level 
without permission of supervision. This is not a habit that 
promotes a willing, healthy safety culture. In order to have a 
great safety culture, training and discipline must go hand in 
hand in a proactive way.
    One of the recommendations implemented from the 2009 
accident was the establishment of Safety Committee meetings. 
But most of the Safety Committee meetings are now attended by 
the few. The topics of discussion are mostly employee 
accidents, absenteeism, and workmen's compensation claims. 
These may be important to the general manager or CFO, but they 
are not the most important topics that affect employees in 
their daily experience. These Safety Committee meetings have to 
be about the protection of employer, worker, and the riding 
public, not just the employer's perspective on safety.
    Workers have developed their own expectations of safety 
based on their daily experiences, such as the lack of bathroom 
facilities, rats in the stations, unruly passengers, equipment 
issues, operator assaults, prompt report repairs, the 
cleanliness of stations, what to do before a passenger spits on 
you, the lack of police presence throughout the system, and the 
list goes on and on. This must be incorporated in the program 
of safety to gain trust and constant interest.
    My testimony today is not to lay blame or point fingers. 
Instead, it is intended to open the discussion that includes 
everyone, my members, WMATA, you, and the people who ride the 
buses and trains every day. And this discussion shouldn't just 
happen when you want to implement a new safety procedure or 
policy. It is about developing the expertise and trust for all 
employees, so that a situation like January 12 can be handled 
in the safest possible way each and every time.
    Local 689 remains, as always, dedicated to safety, to our 
members, and our riders. And I'll take any questions.
    Mr. Mica. Thank you.
    [Prepared Statement of Ms. Jeter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Mica. And we will get to questions right now. With 
pending votes, we'll try to make these as brief as possible and 
succinct.
    First, Mr. Downey, I guess you just took over as chair?
    Mr. Downey. Three weeks ago. I've been on the board for 5 
years, but I've just become chairman.
    Mr. Mica. And I might say I've worked with him for many 
years, outstanding reputation. They couldn't have a better 
chair.
    Mr. Connolly. He's also my constituent.
    Mr. Mica. Good.
    In any event, first of all, there was a communications 
failure. It appears that the system works above ground but not 
below ground. And you're telling us that now it does work and 
it has been tested.
    Mr. Downey. There is now a regular process of testing by 
the----
    Mr. Mica. Does it work?
    Mr. Downey. Things that have been identified that needed 
fixing are being fixed or have been fixed.
    Mr. Mica. But they may not be fixed.
    Chief.
    Mr. Mills. The Office of Unified Communications, in 
conjunction with WMATA, we're doing weekly tests in the various 
Metro stations. And any of our emergency responders that 
respond to stations also test the radios while they're 
there,and there is a report that we fill out that gets 
forwarded by that company to one of our battalion chiefs, to 
WMATA and OUC.
    Mr. Mica. Somewhere the ball was dropped there. I was very 
concerned about the aboveground interoperability. We've had 
several incidents above ground and there was interoperability 
lacking with, well, we have D.C. Police, we have Secret 
Service, we have a whole host of folks. And some of you may 
recall the incidents. Do you think that's under control, the 
ability to communicate between the different enforcements 
agencies and first responders?
    Mr. Mills. Yes, Mayor Bowser has put out a directive that 
we will be going away from the encrypted, which will allow us 
to restore our immediate----
    Mr. Mica. I'm talking beyond that, your ability to 
communicate with the other agencies.
    Mr. Mills. Yes, we have that.
    Mr. Mica. OK. Let me ask you too another question. Was the 
training of the first responders, they said only 100 of the 
firefighters, 1,700 firefighters that might have to deal with 
these incidents have been trained. What is the story there?
    Mr. Mills. We have various levels of training. Everybody 
who comes through our Fire and Rescue Training Academy receives 
training related to Metro and how to operate within a Metro 
systems emergency. Now, as we move forward with our training 
there are technical rescue training, which the 100 we sent out, 
that dealt specifically with elevators and escalator rescues 
within the Metro system.
    Mr. Mica. But basic things, like, again, more than likely 
the power might stay on in an incident, how to get people in 
and out with a hot track?
    Mr. Mills. OK. We have tools as part of the basic training 
that they get in the training at the academy.
    Mr. Mica. When it comes down to it, not everybody has been 
trained who might have to respond to those kind of incidents 
in, say, a hot track?
    Mr. Mills. Yes, everybody receives that training while they 
go through the Fire and EMS Training Academy. When they're in 
their rookie stage, everybody gets that training.
    Mr. Mica. On a Metro situation?
    Mr. Mills. Yes. They get the basic Metro safety training.
    Mr. Mica. All right.
    Mr. Downey. Mr. Chairman, could I add something to that?
    Mr. Mica. Yes.
    Mr. Downey. The hundred out of a total of about 5,000 who 
were trained were individuals who came to our training center 
at Landover where there is a mock tunnel, where there are cars, 
where they really can see the hands-on. We can even fill it 
with smoke and show what that situation would be like. That's 
what we hope we can do with the vast majority of people who 
would respond on Metro, so they could see what actually exists 
on the ground.
    Mr. Mica. And the system, there's a conductor on each of 
these trains. Of course, we've got dozens, almost everybody on 
a Metro has a cell phone. They didn't work. We've got 
recordings from Mr. Rogers' attempts. And you can hear the 
communications were garbled. So people wouldn't know if the 
conductor can't tell them we have got people trapped in a car 
down here. That's solved too?
    Mr. Mills. We had a subsequent emergency last week where we 
had back-to-back Metro boxes, and they were at the same time. 
And the communications between Fire and EMS and Metro and the 
response that we got showed marked improvement. All of our 
requests that we made during those incidents Metro complied 
with immediately. And we were able to mitigate both of those 
incidents in a timely manner.
    Mr. Mica. OK. How many people here took Metro this week? 
Anybody? Raise your hand. OK. All right. Quite a few hands went 
up. As many as three-quarters of a million people a day want 
answers to those questions.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome again to the panel.
    Mr. Downey, picking up on your distinction.
    Mr. Mills, you said all 1,700 have taken training with 
respect to Metro, but not all 1,700 have gone to the Landover 
facility to be trained at the tunnel facsimile, is that not 
correct?
    Mr. Mills. That's correct. We are in the process, through 
the Washington Council of Governments Chiefs Committee, there 
has been rapid improvement in communications with Metro. And we 
are sending----
    Mr. Connolly. I've got very limited time.
    Mr. Mills. OK.
    Mr. Connolly. Unlike you in your testimony, because we have 
votes coming. Is it up to the different jurisdictions whether 
they choose to have that specialized training, Mr. Downey?
    Mr. Downey. We can't force them to come. It is available.
    Mr. Connolly. Right. So weakness No. 1, we don't have 
consistency in the requirement for training in responding to an 
incident in Metro anywhere in the system.
    Mr. Downey. We have some that are very well trained. 
Fairfax County sent 754 responders.
    Mr. Connolly. And D.C. sent 100.
    Mr. Downey. In this particular year, 100.
    Mr. Connolly. And most of Fairfax's Metro is above ground?
    Mr. Downey. Yes.
    Mr. Connolly. Most of D.C. Is below ground in tunnels. So, 
Mr. Mills, I know you're new to Congress, but, I mean, this is 
very troubling that D.C. Has not elected to train all of its 
people at the Landover facility given the fact that 90-
something percent of Metro in D.C. Is underground.
    Mr. Mills. Well, the 100 you're referring to was last year. 
Subsequent years prior to that we have rotated all of our 
companies out there. So a large number of our personnel have 
been trained at the Landover facility. Last year we sent 100 
for technical rescue.
    Now, the Metro tunnel, as you say is underground, hasn't 
changed. It's still the same tunnel----
    Mr. Connolly. Right.
    Mr. Mills [continuing]. That these individuals were trained 
on years ago.
    And let me make this clear: Our members would not have been 
able to respond to that incident on January 12, overcome the 
many challenges that they faced that day with lack of 
information, inability to communicate had they not received 
proper training in years past. They operated tremendously.
    Mr. Connolly. Mr. Mills, you don't need to defend the rank 
and file. They're brave men and women, and they put themselves 
in harm's way. This is a management issue. This is about 
management, not about the rank and file.
    How much money has D.C. gotten since 2001 through UASI 
grants for radios and communication?
    Mr. Mills. I don't have those figures.
    Mr. Connolly. It would be in the tens of millions, would it 
not?
    Mr. Mills. I can't answer that.
    Mr. Connolly. Really? Well, let's get somebody who can.
    Mr. Downey, how much has Metro received in UASI?
    Mr. Downey. Metro has received about $200 million in 
support----
    Mr. Connolly. Right.
    Mr. Downey [continuing]. Much of which has gone for 
cameras, for terrorist teams, for our dog teams, but some of 
which has gone for radios and other communication.
    Mr. Connolly. On September 2001, I remember vividly, two of 
our region's systems didn't communicate with anyone else, D.C. 
and U.S. Park Police. They were on different frequencies, they 
had different equipment. And we all vowed we were going to fix 
that. We were going to have a uniform set of standards so we 
could all speak to one another. And interoperability was 
paramount in our prioritization of UASI grants.
    Here we are 14 years later and Mr. Mills is testifying that 
none of the radios worked underground. They did work on the 
surface. But his men and women couldn't be communicated with so 
that they had an incident report and had accurate information 
as to where is the train, how many people are on the train, 
what's the conditions of the people on the train, is the third 
rail turned off or not.
    I mean, how is this possible after 14 years and hundreds of 
millions--I assure you, Mr. Mills, it's in the hundreds for 
D.C. As well--and we still don't have the ability for Mr. 
Mills' men and women to respond safely and to try to help Mr. 
Rogers and his companions on that train? How is that possible?
    Mr. Downey. There are protocols. There are processes. 
Clearly they have to be exercised through training and through 
regular inspections to see that they are working. It's an ever 
ongoing process. We can't say because we spent the money in 
2001, it would be working today. We have to be sure that it is 
working today.
    I mentioned earlier my concern about our Control Center. 
These people run the whole system. They were the ones who could 
actually know what was going on. We have to be sure that 
they're hearing what's happening and pass it along.
    Mr. Connolly. Yes. But obviously the system did not work 
properly and one life was lost and we could have lost more.
    Mr. Downey. Correct.
    Mr. Connolly. I have one more question, Mr. Chairman, 
because I know we've got to run.
    Mr. Hart, this is an easy one I think. Were Metro's SOPs on 
ventilation consistent with the 2007 guidance issued by NTSB?
    Mr. Hart. We didn't find any written operating procedures, 
and so we don't have a good answer for you yet. That's one of 
the things we're looking at in the course of the evaluation.
    Mr. Connolly. If I'm looking at page 3 of your interim 
report, the answer seems to be no.
    Mr. Hart. Well, we know that someone put an exit fan at the 
station, and that's pretty much logical, that's what you would 
expect to happen. There's smoke in the station, let's exit it. 
But they were also doing exit at the other place, which made it 
a pull/pull operation which didn't move the smoke.
    Mr. Connolly. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me recognize the chairman of the Operations 
Subcommittee, Mr. Meadows.
    Mr. Meadows. Thank you to you for your testimony.
    Mr. Mills, let me come to you because you said that even 
when your men and women went down to make the rescue you 
weren't sure if the electricity was turned off, you weren't 
sure that there were passengers on the train. Is that correct?
    Mr. Mills. Yes. At the time they initially made their way 
into the station, we had not received the information----
    Mr. Meadows. Yes, I need yeses or noes. I only have 5 
minutes.
    Mr. Mills. That's correct, yes.
    Mr. Meadows. Okay. If that is correct, why would you have 
not known? Who is responsible for letting you know that?
    Mr. Mills. When the call was made from WMATA to the Office 
of Unified Communications, they should have----
    Mr. Meadows. So WMATA should have known that the track was 
energized, not energized?
    Mr. Mills. Correct.
    Mr. Meadows. Said there's people on the train, you need to 
get there, and that communication did not happen.
    Mr. Mills. Correct.
    Mr. Meadows. Mr. Downey, why did that not happen?
    Mr. Downey. That's one of the reasons why I've asked the 
Control Center study to be accomplished. That's their function.
    Mr. Meadows. I guess before we answer the question, Mr. 
Downey, how many people have to die and how many events do we 
have to have before we can answer that question? Why did that 
not happen?
    Mr. Downey. We should not have another event like this at 
any time. We need to look at our procedures. We need to retrain 
our people. We need to establish----
    Mr. Meadows. But I've looked at some of the question and 
answer, Mr. Downey, and this is not to be directed just at you, 
I looked at some of the questions and answers with 2009. And 
some of the same things were said back then--we're going to do 
training, we're going to do this, we're going to do that. And 
yet here we are some 6 years later and the same thing happened.
    Mr. Downey. I would like to provide for you the things we 
have done, but there's----
    Mr. Meadows. I don't need----
    Mr. Downey. --still a long list of things that----
    Mr. Meadows. If you tell the 80-plus people that were 
facing death about the things we have done, they don't care 
about that. All they care about are the things we haven't done.
    Mr. Downey. Right.
    Mr. Meadows. So let me ask you, Mr. Downey, because a lot 
has been made of the resources and lack of resources that we 
have and that this is not just a management problem. And so, 
because I don't know, I just went in and I went to the National 
Transit Data base. And I looked at what transit in New York, 
Chicago, and here in Washington, what they're spending. And 
when I looked at those figures, it looks like you're spending 
more money than Chicago, who has a bigger system. So is it 
really a resource problem or a management problem?
    Mr. Downey. I don't know whether you're talking about our 
operating expense or----
    Mr. Meadows. I'll look at operating and total because 
you're spending more on all of those things.
    Mr. Downey. I know we are spending more on capital than 
probably Chicago, not as much as New York. We're spending a lot 
because we're catching up from years and years of deferred 
maintenance. We really need to go through the system and 
replace----
    Mr. Meadows. So your testimony here today is that you're 
not really spending more than those systems that are actually 
bigger, that your budget is not bigger?
    Mr. Downey. I don't know if our operating----
    Mr. Meadows. Because I went back over 10 years and I looked 
at the budget and compared it to Chicago. And your budget every 
single year is bigger all the way around than Chicago, who is a 
bigger system with more employees and more customers. So is 
that a management problem?
    Mr. Downey. I'd be happy to look at that. I know it's 
smaller than New York. The comparison to Chicago, I'm not 
familiar with.
    Mr. Meadows. All right. So let me go on a little bit 
further, because what troubles me is, is that we'll have this 
hearing and nothing happens. Do you believe that some of the 
problem was because smoke in tunnels, trains not working, 
elevators not working, escalators not working, things not 
working, that that has become so commonplace that when Mr. 
Mills got the call they just figured, well, it's just another 
smoke in the tunnel? Is that commonplace to see smoke in the 
tunnel?
    Mr. Downey. There are occasions where either a trash fire 
or some small thing happens where there is smoke. But I think 
we should always assume that there are people at risk. I think 
the response should be based on the fact that trains run in the 
tunnels, people are on trains, we really have to keep that in 
mind as what could be a worst case, and respond to it.
    Mr. Meadows. Mr. Hart, let me, my last question is to you, 
because obviously you're going to make some recommendations, 
you have made some preliminary things. I go back to some of the 
prior events, not just 2009 but before that, the ``it says 
because you could not compel them to take action.'' Do you 
expect the same response this time?
    Mr. Hart. I wouldn't want to predict what the response is. 
I would just say that, at this point, WMATA is cooperating with 
us very well in the----
    Mr. Meadows. Have they always cooperated with every 
recommendation in the past? Yes or no?
    Mr. Hart. I wouldn't say every recommendation, most----
    Mr. Meadows. So there are recommendations that you deemed 
important that they did not respond to?
    Mr. Hart. Yes. That's correct.
    Mr. Meadows. All right. Thank you.
    Mr. Mica. Thank the gentleman.
    Recognize Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Downey, thank you for your service. We appreciate part-
time service.
    Mr. Downey. Part-time, uncompensated service.
    Mr. DeSaulnier. Yes. I'm aware. Many of us used to do that.
    So specifically to the safety culture, and specific 
responses, brief please, and then Ms. Jeter, this is 
disturbingly familiar to the situation in the Bay Area that I 
have been unfortunately very intimately involved with----
    Mr. Downey. I know that.
    Mr. DeSaulnier [continuing]. Between ATU, all of the locals 
at BART, and management. Ms. Jeter said the safety culture 
should go from the general manager down to the rank and file. I 
would add that it should be actively engaged in at the board 
level.
    Mr. Downey. At the board level.
    Mr. DeSaulnier. Unfortunately, too often in these boards, 
my experience is that you are very dependent on staff and 
sometimes reluctant to question staff. So what specifically is 
the board doing? And I'm not ascribing blame, by the way, to 
either side, but the collective culture has led to somebody 
losing their life.I should say many people losing their lives. 
So for all the specific things we have to do in operations and 
improved resources, you've still got this culture. What is the 
board doing to remedy it?
    Mr. Downey. I believe that that does start with the board. 
And I joined the board in 2010 in the aftermath of the Fort 
Totten incident. One of the first things I asked the board to 
do was to establish a regular Safety Committee. I've chaired 
that committee for the last 5 years. We meet once a month. We 
get regular progress reports on dealing with NTSB and other 
recommendations. We review incident reports.
    Mr. DeSaulnier. Mr. Downey, excuse me, my question again, 
because we're all limited in time, is the relationship with the 
employees.What are you doing specifically on the board to do 
corrective things for what's been described by Ms. Jeter? And, 
again, I'm not ascribing blame. But it's a problem that has to 
be solved.
    Mr. Downey. One of our early actions was to do an employee 
survey. And, frankly, in 2011 it showed the conditions that Ms. 
Jeter described. We recognized that is what needed to be 
changed. We've taken a number of steps. A survey a year or so 
ago indicated to us that there had been improvement. But 
clearly there's always more room.
    We at the top, at the board, are committed to a safety 
culture. If you ask me to describe it, I would describe it the 
same way Ms. Jeter did. We need to work down through the 
organization and find where in the middle it's not functioning 
as it should.
    Mr. DeSaulnier. Ms. Jeter, have you given specific 
recommendations to the board as to how to improve the 
situation, either outside of collective bargaining or during 
collective bargaining, that you're comfortable giving to the 
committee?
    Ms. Jeter. I won't say specifically because I know there's 
a couple letters that I've written to the board concerning 
things that the union feels needs to be looked at. But I can 
say that to the general manager and down through the Safety 
Committees we have. Mr. Connolly talked about the radio 
problems. It's a radio problem throughout the system. It's not 
just this particular incident that happened to happen with the 
preparedness team that was there, the emergency response team. 
It is a problem.
    And I've said to the general manager, Sarles, as well as 
the acting general manager, that some of the concerns that we 
have are the ones that we actually do not--we look at a survey 
and we look at employees saying, oh, yes, I would respond to a 
safety issue. But that's not a safety culture. And anybody will 
say anything, especially when the rule says you're supposed to 
report all safety issues. So, of course, they're going to say 
yes to a survey.
    Mr. DeSaulnier. Thank you, Ms. Jeter.
    Mr. Hart, your great comments under the Most Wanted List of 
Transportation Safety on page 2 of your testimony, ``Mass 
transit agencies should work to identify, define, prioritize, 
and mitigate safety risks,'' that's permissive. Should it be 
less permissive and must? And what is the role of the Federal 
Department of Transportation? If you would be brief, I have a 
question for Mr. Rogers I want to finish with.
    Mr. Hart. Sure. We are not part of the Department of 
Transportation. Your question would be more aptly directed to 
the regulator, which is the Federal Transit Administration. We 
are the investigator. We can't require anyone to do anything.
    Mr. DeSaulnier. Okay.
    Mr. Rogers, again, thank you. And having lived through 
this--and probably the most important stakeholder here is the 
commuter and the confidence you have in the system--having 
listened to all this, and clearly something that was emotional 
and will stay with you the rest of your life, do you have any 
sense of greater confidence in the system and that this won't 
happen again?
    Mr. Rogers. I guess not yet, not at this point. But I'm 
hopeful that they can make the changes that'll increase safety.
    Mr. DeSaulnier. Thank you, sir.
    I yield back, Mr. Chairman.
    Mr. Meadows [presiding]. Thank you.
    The chair recognizes the gentleman, Mr. Grothman.
    Mr. Grothman. OK. Just a couple questions, I guess for Mr. 
Downey or whoever else wants to answer, just so I get a sense 
here. As far as other metros, Boston, Chicago, New York, or in 
Europe, Latin America, could you compare your safety record, 
per passenger or per trip or whatever, to these other systems 
in other countries or elsewhere around the United States?
    Mr. Downey. We do regular reporting on incidents, number of 
passenger injuries, et cetera. We generally compare ourselves 
to where we were in the past to see that we're getting better. 
There are data, but it's very hard to make the comparison. I 
think on the whole we do rank reasonably well,but I wouldn't 
totally depend on how we report things, how others report 
things. I think what is really important is we're looking at 
where we are and where we need to be and measuring are we or 
are we not getting better.
    Mr. Grothman. Okay. So you don't really have a hard 
feeling, I suppose----
    Mr. Downey. Couldn't give you a hard number.
    Mr. Grothman. Don't really keep track of that? Okay.
    Mr. Downey. I would give you one hard comment, which is 
public transit everywhere is a very, very safe mode of 
transportation relative to other ways of getting around.
    Mr. Grothman. OK.
    Apparently in 2006 you had a similar incident, and the 
train operator, he just went car to car and did manage to 
evacuate the passengers. Could you comment on why that didn't 
have this time or I guess why, is there training going on or 
why apparently the operator was able to handle this 8 years ago 
and not this year?
    Mr. Downey. I think, as we heard from Mr. Rogers, the train 
operator in this incident, and I think the Safety Board report 
will clear up whatever happened, he did go through the train, 
he did communicate. From all I've read about it, this was, from 
his standpoint, a well-handled responsibility that he has. I 
think the 2006 incident was a Chicago event, not a Washington 
event.
    Mr. Grothman. OK.
    I yield my time.
    Mr. Meadows. I thank the gentleman.
    We do have votes, and so I want to just remind members we 
have votes. But the chair recognizes the gentlewoman from New 
York.
    Mrs. Maloney. Thank you. I'll be very brief. My condolences 
to Mrs. Glover's family and appreciation to the first 
responders and good samaritans that rushed to try to save 
lives.
    Mr. Downey, I represent New York, and on 9 11 our radios 
didn't work and it contributed to the loss of over 300 
firefighters' lives. And since then this Congress has tried to 
help localities make them work. And I understand that Metro has 
spent over $31 million on radio equipment and interoperability 
through the Federal Transit Administration-funded projects.
    So I just want to ask you, and I guess we don't have time 
to hear an answer, but is there any more that Congress can do? 
But why can't we get these radios to work? We can put people on 
the Moon, and if we could get these radios to work, it could 
save lives. And I'm not just going after your area. They still 
don't work in New York. They're still not interoperable.
    So there's a disconnect. There's something happening that 
this project that should be achievable is not working. I feel 
it's critical and serious and that we need to be able to do it 
to save lives. But that's my question. But the chairman is 
telling me we have to rush to vote. So I respectfully request 
an answer in writing back to the committee. Thank you.
    Mr. Downey. We'll provide you with that.
    Mr. Meadows. I thank the gentlewoman. I'm going to go ahead 
let her go ahead to vote. I will say that because of the 
serious nature of this particular event and obviously the 
serious tone of this particular hearing, we're going to 
continue on with this hearing now and not recess. And I'm going 
to recognize the gentlewoman from the District here, Ms. Holmes 
Norton.
    Ms. Norton. I thank you, Mr. Chairman. I was going to let 
Mr. Beyer go before----
    Mr. Meadows. All right. We'll go ahead and recognize Mr. 
Beyer so he can go to vote.
    Ms. Norton. He has the right to vote.
    Mr. Beyer. Thank you, Ms. Norton.
    Let me first, Mr. Chairman, thank you so much for being 
patient with all this. And let me first praise Mr. Jonathan 
Rogers for his brave, compassionate assistance to Carol Glover. 
The last year has been a difficult one for race relations in 
our country, and the powerful symbolism of a young white man 
showing such great love and courage for an older African-
American woman in need is an inspiration to us all and a true 
sign of progress as our multiracial community heals and 
evolves.
    So, Mr. Rogers, thank you.
    I really only have one question for Mr. Mills. But I would 
like to begin reading parts of two letters I received from 
constituents and also ask for unanimous consent that both 
letters be submitted for the record.
    Mr. Beyer. The first is from Gary Matz, writing on behalf 
of himself and his wife Lynette. These are just excerpts.
    ``The very short answer is that we did not see any 
emergency assistance as we came out of the station. To go back, 
we were evacuated off the train, walked along the catwalk back 
to the station. We were struck by how quiet the station was. No 
people except for those being evacuated from the train. We 
proceeded up the escalators. We were met by a single Metro 
official at the top of the escalators who was directing traffic 
outside.
    ``We exited the station and saw a bus and perhaps one or 
two fire trucks. We remember seeing very few, if any, people. I 
remember kind of shrugging my shoulders and telling Lynette, 
let's find a taxi and go home.
    ``I fully expected to be met by an organized team of 
people, medics or first responders or whatever. This was not 
the case. We did not see any organization, nor were we met by 
anyone. We simply came out to the street, surveyed the scene, 
noticing a few vehicles, and then decided just to go home.''
    Another letter came from Marc McKeigan about his son Paige 
McKeigan and one of his classmates, Joey Peterson. They are 
here today. Can you both just stand, just that were here.
    Let me read: ``Thousands of parents entrust the safety of 
their children to WMATA every day as they commute to and from 
schools. My son Paige and five of his Gonzaga classmates were 
on the second-to-last car of that fateful Metro train. You can 
imagine my concern when I received an unexpected text from them 
at 3:41 that day that simply said, I love you, Dad. Those boys 
thought they might die.
    ``Mercifully, the boys are OK, but they took it upon 
themselves to abandon the train. They determined which side of 
the train was farthest from the third rail and pulled the doors 
open. Using flashlights from their cell phones, they crept 
through the smokey tunnel to the platform at L'Enfant Plaza. 
Paige reported that when they got to the platform they saw a 
number of firemen standing there. No one asked the boys where 
they had come from or how they got off the train. When they got 
to the street, their faces were covered with soot and smoke, 
and no one approached them.
    ``The boys reported that after about 30 minutes of staying 
on the dark and smokey train, they decided to take matters into 
their own hands. I can at least partially understand the 
confusion in the tunnel, but why was there so little support 
for the passengers who made it off the train and back to the 
station? Where were the medical personnel, EMTs, fire support, 
even traffic cops?''
    We had another constituent call us and tell us that he was 
put on a bus at the station to the hospital, that the bus had 
no police escort and took over an hour to get to GW Hospital. 
So we've had lots of attention on fans and cables and radios 
and alarms and evacuation protocols, but aren't we looking at 
massive failures of the simple emergency and medical response 
for the people who made it safely back to L'Enfant Station?
    So, Chief Mills, I have great difficulty reconciling your 
account of all the first responders arriving with the personal 
accounts of the survivors. Chief?
    Mr. Mills. With that particular station, there are multiple 
exit points. The majority of the people we had exiting the 
station were at the 7th and D location near the HUD building. 
That's where we had set up our treatment and triage areas 
because that's where the largest contingent of people were 
coming out. There were other exits at the Virginia Avenue 
station, that we initially had responders there,but they 
weren't receiving anybody. And to be able to have enough 
personnel to treat the large number of individuals that were 
coming out of the other entrances, we had to redeploy those 
resources to other locations. And I can't explain for, or I 
don't know where everybody exited the station because of the 
multiple exits for that station.
    Mr. Beyer. One more question. Mr. Downey, has Metro made 
any plans to followup on the middle to long-term health impacts 
of the smoke inhalation on all the passengers? Some went to the 
hospital right away, but we know now about the toxic chemicals 
from the burned cables that were in the smoke. So what are we 
going to do about the possible continuing health concerns of 
those people that were on the train?
    Mr. Downey. I'm not aware of any, but I will get back to 
you on that.
    Mr. Downey. We do have as part of our protocol family 
assistance programs. When people have been injured on the 
system, we follow through with the families. But we need to 
check on that issue. I know it was an issue at the World Trade 
Center after 911. Conceivably it could be an issue here.
    Mr. Beyer. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    I want to go ahead, we have a 911 call or recording. Could 
you go ahead and cue that up? And let's listen to that.
    [Audio recording played.]
    Mr. Meadows. I think you get the point. Congress really, 
there's a law in place that says that we had to have cell phone 
coverage in these tunnels. And it's been put off because of the 
2009, you got a waiver from Congress. But yet here we are in 
2015 and still no 911 call ability.
    Mr. Rogers, did you try to make a call or text to your 
family?
    Mr. Rogers. Yes. I did try to text my wife and it didn't 
work.
    Mr. Meadows. So it wasn't successful?
    Mr. Rogers. No.
    Mr. Meadows. So here we are in 2015, still, not only with 
this event but a major event, and, Mr. Downey, that's something 
that we're going to have to address.
    Mr. Downey. Could I respond on that?
    Mr. Meadows. Sure.
    Mr. Downey. We welcomed Congress' action in asking that 
this be done. The next step was to get the communications 
carriers together, form a consortium to do the installation. 
They have been at it for a number of years. To date, all of the 
stations have been brought online. Cell service is available in 
the stations. It is not yet complete within the tunnels.
    Within the last year or so, unfortunately, the consortium 
that they created to do this work went bankrupt, causing a 
considerable delay. The carriers are now working again to put a 
vehicle in place to deliver this. We'll make the tunnels 
available and the time available to make it happen. But it has 
been a long and complicated process.
    Mr. Mica [presiding]. Maybe you can provide the committee 
with that timeframe.
    Mr. Downey. We will do that.
    Mr. Mica. Ms. Norton, you are recognized.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I must say that the combination of the cell phone coverage 
and the chaos that Representative Beyer described above ground 
finally after people had been rescued is very troubling. And a 
lot needs to be fixed. But, nevertheless, I need to thank all 
of you for the service that you give, Mr. Downey without a 
penny of compensation.
    I particularly have to thank Mr. Rogers. You weren't asked 
a lot of questions but your courage spoke for itself. I'm just 
pleased and proud to have you as a constituent of the District 
of Columbia.
    The Glover family hangs over everything we do, this 
hearing, it's an inspiration and an impetus.
    Mr. Downey, let me say that I take it that the fares are 
not going to be raised and that WMATA understands that this is 
no time to raise the fares. I say that understanding that that 
will put a burden on the jurisdictions. And I need to tell you 
that I'm trying to help because of a bill I'm introducing that 
would fix the irrational disparity because tax benefits 
available to those who drive and those who use Metro resulting 
in loss of ridership to Metro. But you do agree that the burden 
should not be on those who ride the trains, particularly after 
this accident?
    Mr. Downey. I certainly agree with you. We had a meeting of 
the Finance Committee of the board yesterday to discuss where 
we go with respect to balancing our budget.
    Ms. Norton. I thank you for that. Again, with limited time, 
I have to move on. I need to ask about best practices.
    Mr. Downey. But we certainly would like to find a way to do 
it without raising fares.
    Ms. Norton. So we will not be raising fares?
    Mr. Downey. I would hope we do not have to raise the fares.
    Ms. Norton. And I understand it takes a vote of the board?
    Mr. Downey. Yes.
    Ms. Norton. I suppose this is really for Mr. Hart. It's 
about best practices. We've heard, for example, that our 
firefighters have, indeed, gone to the tunnel or to the mock 
cars and the rest. Obviously they couldn't all go at one time. 
But I'm really wondering if it is enough.Whether or not 
firefighters from the region and Metro workers need to be 
exposed to real-time exercises in the tunnels so that they are 
not faced with going into a dark tunnel for the first time.
    And I thank you, Mr. Mills. And I'll tell you, I have a 
bias because I am a great-granddaughter of a firefighter who 
went to the D.C. Fire Department in 1902. And I'll tell you, 
when firefighters go into a smoke-filled tunnel and they don't 
even know that the third rail is off, my hat is off to those 
fellows.
    Ms. Norton. But I need to know whether that's enough. I bet 
many of those may have gone to Landover, but I wonder if they 
had ever been into a tunnel and whether we need real-time 
exercises in tunnels, recognizing that the trains have to run, 
that we can't interfere with service, but real-time exercises 
in the tunnels across the region, not only in the District of 
Columbia, by firefighters and by WMATA workers. Would that be 
what would be best practices?
    Mr. Downey. One of our followup actions that we have 
already taken is to establish a schedule looking forward over 
the next 3 years to hold such drills in each physical part of 
the system and each jurisdiction.
    Ms. Norton. No, I'm asking Mr. Hart really about whether 
regionwide, because he's the expert on best practices, is it 
enough to have a mock tunnel? I'm glad about the mock tunnel 
and the mock cars, but I'm asking whether best practices 
wouldn't be to expose the firefighters and the WMATA workers to 
the tunnels.
    Mr. Hart. Thank you for the question. One of the issues we 
are looking in the investigation is the adequacy of the 
training. We will be looking at WMATA's existing training 
facility and we will be determining in the course of the 
investigation is that adequate or does it actually need on-
scene training in various areas.
    Ms. Norton. That's what I'm asking for. And I thank you for 
looking at that.
    I'd like to ask Ms. Jeter a question. First of all, I must 
say another hero in this is that conductor who told the people 
it is not a fire, who kept them calm. I don't know his name, 
but I'd like to put something in the congressional Record for 
him as well, as for Mr. Rogers, who performed, it seemed to me, 
as single individuals way above the cause of duty.
    I'm very concerned about this issue of a call line. We 
learned in 2009 that the best practice in airlines and trains 
is to report safety problems. And apparently that's routinely 
done what was not done in WMATA. Now, Ms. Jeter has said, well, 
yes, there is a call line, but the people still feel 
retaliation by supervisors if they report a safety issue.
    Mr. Hart, I need it know how the others are able do it so 
that people feel freely to say something happened in an 
airplane and you need to know this, and yet they feel that 
there will not be retaliation. Why in the world doesn't that 
work after the 2009 accident at WMATA?
    Mr. Hart. The success of the Near Miss Reporting System in 
aviation has been amazing, but we've certainly been exploring 
how to share that success with other modes. It has not been as 
easy in other modes and the biggest problem is the lack of 
confidence of the person reporting that their report will not 
be used against them.
    Ms. Norton. Well, Ms. Jeter, why do you people think it 
will be used against them? Has it been used against people?
    Ms. Jeter. Of course. And we do have a punitive system. So 
when your disciplinary system or your reporting system has a 
punitive result, that's what they go to.
    Now, we have agreed to have a close call reporting system. 
That's one of the initiatives that the union and WMATA did 
enter into. But the scope of the reporting system is so small 
because of the people that can use it, but that still lacks the 
confidence or the trust that if I go to a nonpunitive or 
anonymous reporting system that somehow that WMATA's not going 
to know about it and I'm not going to get in trouble.
    Mr. Mica. Thank you, Ms. Jeter.
    And also thank you, Ms. Norton. We have gone a couple of 
minutes over on yours and they are calling the last vote here.
    I want to thank all of our witnesses. What I'm going to do 
too, with agreement with the minority, we're going to leave the 
record open for 10 days for additional questions that may be 
submitted by members and ask you to respond.
    Mr. Mica. Thank you so much. We can and we must do better. 
And appreciate your being part of this hearing today.
    There being no further business, this joint subcommittee 
hearing is adjourned. Thank you.
    [Whereupon, at 11:10 a.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
